Nos. 20-512, 20-520
IN THE

Supreme Court of the United States
NATIONAL COLLEGIATE ATHLETIC ASSOCIATION,

v.
SHAWN ALSTON, ET AL.
AMERICAN ATHLETIC CONFERENCE, ET AL.,

v.
SHAWN ALSTON, ET AL.

Petitioner,

Respondents.
Petitioner,
Respondents.

PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this tenth day of March 2021, I have served three (3) true
copies of the Brief of Amicus Curiae The Committee to Support the
Antitrust Laws Supporting Respondents and Affirmance by priority
mail, postage prepaid, addressed as follows:
Attorneys for Petitioners
Andrew John Pincus
Mayer Brown LLP
1999 K Street, NW
Washington, DC 20006
202-263-3220
apincus@mayerbrown.com
Party name: The Big Ten Conference, Inc.
Seth P. Waxman
Wilmer Cutler Pickering Hale and Dorr LLP
1875 Pennsylvania Ave, NW
202-663-6800
Seth.Waxman@wilmerhale.com
Party name: National Collegiate Athletic Association

Attorneys for Respondents
Linda T. Coberly
Winston & Strawn, LLP
35 West Wacker Drive
Chicago, IL 60601
312-558-8768
lcoberly@winston.com
Party name: Shawne Alston, et al.
Other
Jay L. Himes
Labaton Sucharow, LLP
140 Broadway
New York, NY 10005
212-907-0834
jhimes@labaton.com
Party name: Open Markets Institute
Thomas Benjamin Nachbar
University of Virginia School of Law
580 Massie Road
Charlottesville, VA 22903
434-924-7588
tnachbar@law.virginia.edu
Party name: Thomas B. Nachbar
Mark Simon Davies
Orrick, Herrington & Sutcliffe LLP
Columbia Center
1152 15th Street NW
Washington, DC 20005
202-339-8631
mark.davies@orrick.com
Party name: Former Student-Athletes
Jessica Lynn Ellsworth
Hogan Lovells US, LLP
555 13th Street, N. W.
Washington, DC 20004
202-637-5886
jessica.ellsworth@hoganlovells.com
Party name: American Council on Education and Ten Other
Higher Education Associations

2

Anita M. Moorman
Sport Administration Program, Univ. of Louisville
SAC East, Suite 104R
Louisville, KY 40292
502-852-0553
amm@louisville.edu
Party name: Sam C. Ehrlich
Bruce Davidson Oakley
Hogan Lovells US LLP
609 Main Street
Suite 4200
Houston, TX 77002-2781
(713) 632-1420
Bruce.Oakley@hoganlovells.com
Party name: Antitrust Economists
Jack Edward Pace III
White & Case LLP
1221 Avenue of the Americas
New York, NY 10020
(212) 819-8200
jpace@whitecase.com
Party name: Antitrust Law And Business School Professors
Andrew Alan Pinson
Office of the Georgia Attorney General
40 Capital Square SW
Atlanta, GA 30334-1300
404-458-3409
apinson@law.ga.gov
Party name: Georgia, et al.

3

Yen-Shyang Tseng
Horvitz & Levy LLP
3601 W. Olive Ave.
8th Fl.
Burbank, CA 91505
818-995-0800
ytseng@horvitzlevy.com
Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

4

